HHS/OIG, Audit - "Review of Nursing and Allied Health Education Payments
to St. Elizabeth Medical Center for the Period January 1, 2004, Through December
31, 2004," (A-02-05-01027)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Nursing and Allied Health Education Payments to St. Elizabeth Medical Center
for the Period January 1, 2004, Through December 31, 2004," (A-02-05-01027)
June 10, 2008
Complete
Text of Report is available in PDF format (1,230 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For calendar year 2004, St. Elizabeth Medical Centers (St.
Elizabeth) nursing and allied health education programs met both Medicare
program eligibility and cost reimbursement requirements.
Pursuant to Federal
regulations, a provider that has transferred ownership of a previously
provider-operated program to a wholly owned subsidiary educational institution
may receive reasonable Medicare cost payments.  For transfers prior to October
1, 2003, Medicare reimburses the provider for clinical training costs and
classroom courses included in the previously provider-operated program.  In
1997, St. Elizabeth restructured its nursing education program.  Therefore,
costs related to classroom courses added to the program after the transfer are
not eligible for Medicare payment.
In its comments on the draft report, St. Elizabeth stated
that it added a course to its nursing education program after transferring
ownership of the program and provided documentation that the course was a
clinical course with no classroom time.  Based on the new documentation
provided, the report contains no recommendations.